Before the Committee on Transportation and Infrastructure
Subcommittee on Highways and Transit
United States House of Representatives

For Release on Delivery
Expected at
2 p.m. EDT
                          Motor Carrier Safety:
Wednesday
July 11, 2007
                          Oversight of High-Risk
CC-2007-078
                          Trucking Companies




                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Chairman DeFazio, Ranking Member Duncan, and Members of the
Subcommittee:

Thank you for the opportunity to testify today on the Federal Motor Carrier Safety
Administration’s (FMCSA) actions to improve oversight of high-risk motor
carriers. As you know, we have testified many times on motor carrier safety
issues, and we appreciate the continued interest and strong support that Congress
has shown in improving motor carrier safety.

Crashes causing injury and death are a constant concern. For Fiscal Year (FY)
2005, there were nearly 2.7 million injuries and over 43,000 fatalities on our
nation’s highways, of which over 5,000 were related to crashes involving large
trucks.

My testimony today draws from our extensive body of work on the motor carrier
safety program over the last several years. Since 2000, we have issued 24 reports
and testimony statements on FMCSA initiatives. One particular focus has been
the agency’s operation of the system it uses to identify high-risk carriers—the
Motor Carrier Safety Status Measurement System, or SafeStat. We have also
reviewed commercial driver’s licenses, and implementation of the Motor Carrier
Safety Improvement Act of 1999 (MCSIA), as well as cross-border trucking issues
related to the North American Free Trade Agreement (NAFTA).

Fraud against the motor carrier safety program has been an investigative priority
for our office for the last 10 years, targeting such crimes as false driver logs,
fraudulent commercial driver’s licenses, and falsified drug testing. Since
FY 1997, our criminal investigations in this area have resulted in 533 indictments,
464 convictions, and nearly $41 million in fines, restitution, and civil recoveries.

FMCSA was created by Congress in 1999 to save lives and reduce injuries related
to crashes involving large trucks. In carrying out its mission, FMCSA is involved
in a wide range of activities, including issuing and enforcing rules and regulations
in critical areas such as hours of service, sponsoring research, providing grants to
the states for conducting roadside inspections and new-entrant safety audits, and
monitoring state licensing of commercial drivers.

With over 700,000 registered motor carriers, it is essential to examine ways to
better target FMCSA’s resources to those motor carriers presenting the greatest
risk. Yet simply targeting the highest risk carriers will not be enough. To be
effective in reducing crashes, FMCSA must combine its targeting efforts with
effective review of high-risk motor carriers for compliance with safety regulations,
followed by strong enforcement action as warranted.
                                                                                 2


Today I will discuss our observations about FMCSA’s progress as well as the
challenges FMCSA faces in formulating programs to help it achieve its mission.
Specifically:

1. FMCSA has made important progress in improving motor carrier safety and
   has plans for continued improvement, but further reductions in the fatality rate
   will be difficult to achieve.

2. FMCSA must obtain more complete information on motor carrier crashes to
   more effectively target the highest risk carriers for compliance reviews.

3. FMCSA must reassess and strengthen the compliance review process as
   vulnerabilities are identified.

4. FMCSA must ensure that enforcement actions are taken against repeat
   violators.



FMCSA Has Made Important Progress in Improving Motor
Carrier Safety and Has Plans for Continued Improvement, But
Further Reductions in the Fatality Rate Will Be Difficult to
Achieve

Significant challenges remain as FMCSA continues its progress in improving
motor carrier safety. As shown in Figure 1, the large-truck fatality rate has
decreased about 15 percent from 1998 to 2005. The number of large-truck-related
fatalities decreased from about 5,400 in 1998 to about 4,900 in 2002; FMCSA
estimates just over 5,000 fatalities for 2006. Even during years with increased
numbers of fatalities, the fatality rate per vehicle miles traveled has declined.
                                                                                                  3


           Figure 1. Fatality Rate for Large-Truck-Related Crashes

    Fatality rate per 100 million
    vehicle miles traveled
    4.00


    3.00    2.75      2.65          2.57    2.45    2.30    2.31      2.37      2.34       2.20

    2.00                                                    2.19
                                                                      2.07     1.96        1.85
    1.00
                        Actual Fatality Rate         Projected Rate          Target Rate
    0.00
       1998        1999       2000         2001    2002    2003       2004     2005        2006
                                                   Year
           Source: FMCSA and OIG based on National Highway Traffic Safety
           Administration data.

While progress has been made in reducing the large-truck fatality rate, the
Department will have difficulty attaining its goal set in the 2006 Strategic Plan.
The plan set an ambitious goal to reduce the large-truck fatality rate to
1.65 fatalities per 100 million vehicle miles traveled by 2011. For 2006, the most
recent year for which data are available, the preliminary fatality rate was
2.20 deaths per 100 million miles, well short of the goal of 1.85 established for
that year. Had the 2006 target rate been achieved, 807 fewer lives would have
been lost.

The Department believes that additional improvements will be increasingly more
difficult to achieve. In its November 2006 Performance and Accountability
Report, the Department stated that “gains have reached a plateau, and further
reductions in the fatality rate are becoming harder and harder to attain.” 1

Our April 2006 audit of FMCSA’s implementation of MCSIA found that FMCSA
had significantly improved oversight of motor carrier safety since our 1999 audit.
FMCSA and the states had stepped up enforcement of the regulations through
compliance reviews, inspections, and other enforcement activities. Enforcement
actions include levying civil penalties, imposing out-of-service orders against
specific trucks/drivers, and shutting down a motor carrier’s entire operation.

1
    United States Department of Transportation Performance and Accountability Report, FY 2006,
    November 15, 2006.
                                                                                                   4


Since FY 1998, FMCSA has conducted more compliance reviews, opened more
enforcement cases, and increased civil penalties for violations of safety
regulations. The agency significantly increased its enforcement actions against
serious motor carrier violations related to limits on driver hours of service, use of
controlled substances and alcohol, vehicle inspection and maintenance, and driver
qualifications. It also expanded its use of consent 2 and out-of-service orders for
motor carriers with unsatisfactory ratings and those that fail to pay civil penalties.
The value of civil penalties assessed increased from $11 million in 1998 to $29
million in 2004. As a result, the proportion of rated motor carriers with a rating of
“satisfactory” increased from 44 percent in 1998 to 61 percent in 2004. In
addition, the percentage of motor carriers rated “conditional” or “unsatisfactory”
decreased from 46 percent in FY 1998 to 36 percent in FY 2004. Figure 2
provides details about the expansion of oversight and enforcement activities.

    Figure 2. Increases in Oversight and Enforcement Activitiesa


      12,000
                              10,658

      10,000


       8,000
                                                                                    6,957
                      6,312                               6,459
       6,000


       4,000
                                                2,680
                                                                           2,240
       2,000


             0
                 Compliance Reviews Enforcement Cases                   Violations Enforced

                                      FY 1998              FY 2004
                  a
                    FY 2004 is the most recent year for which data confirmed through our
                  audit work are available.
                  Source: FMCSA.

2
    FMCSA uses consent orders in a negotiated settlement agreement that commits the carrier to taking
    specific actions to achieve full compliance with Federal regulations.
                                                                                    5


Since 2004, FMCSA has been developing a new compliance and enforcement
model to more effectively oversee the motor carrier industry and further reduce
commercial motor vehicle crashes, fatalities, and injuries. This new model, which
FMCSA plans to deploy in 2010, is expected to retool its systems for identifying
and targeting high-risk motor carriers and for monitoring their safety performance.
To implement this new model, FMCSA must define and develop data systems and
software; draft necessary rulemakings, legislation, and policies; and conduct
training. FMCSA believes the new model will allow the agency to contact more
motor carriers and drivers, improve data to better identify high-risk carriers and
drivers, and apply a wider range of interventions to correct high-risk behavior.

We have not audited FMCSA’s plans for the new model, and are not in a position
to discuss its specific details. However, based on our work on FMCSA’s existing
data systems, any data-driven model would benefit from improvement in the
completeness of data.



FMCSA Must Obtain More Complete Information on Motor
Carrier Crashes to More Effectively Target the Highest Risk
Carriers for Compliance Reviews
FMCSA can improve its oversight of high-risk motor carriers by obtaining more
complete information about crashes for use in targeting motor carrier reviews.
Because FMCSA reviews less than 2 percent of active interstate motor carriers
each year, it is important that it select for compliance review the carriers that pose
the greatest safety risk.

FMCSA uses the Motor Carrier Safety Status Measurement System, or SafeStat, to
rank and prioritize high-risk motor carriers for compliance review. SafeStat is an
automated, data-driven system for ranking motor carriers using current safety
performance data on crashes, inspections of trucks and drivers, results of
compliance reviews, and enforcement actions recorded in FMCSA’s database.
FMCSA also uses SafeStat to generate warning letters advising carriers that
continued performance problems may result in compliance reviews and potential
state vehicle registration sanctions. SafeStat is also used to prioritize trucks and
buses for roadside inspection.

Our February 2004 audit of SafeStat found significant weaknesses in the
underlying data reported by states and motor carriers and with FMCSA’s
processes for correcting and disclosing data problems. We did, however, find that
the system was an improvement over previous systems, and was useful for internal
targeting of FMCSA’s enforcement efforts. Since 2004, FMCSA has taken action
to improve reporting by the states, and more crashes are being reported. Fifteen
                                                                                   6


state data quality reviews have been completed; FMCSA must ensure that the
remaining ones are completed by the end of 2008, as promised.

Motor carriers are required to submit periodic updates to census data, including
information on the number of drivers and vehicles used in SafeStat calculations.
FMCSA cannot effectively rank the safety performance of motor carriers without
complete and accurate census information. In the worst case, motor carriers with
incorrect census records showing “zero” power units can have crashes, including
fatalities, without it negatively impacting their safety ranking. Outdated census
data have been identified in our audit work as an area of weakness. In response to
a recommendation in our April 2006 report, FMCSA agreed to reduce the
incidence of outdated census data by taking enforcement action against motor
carriers that resist compliance with census-updating requirements.

At the request of Congressman Thomas Petri, we conducted a follow-up review of
FMCSA's actions to improve the data relied upon in SafeStat and provided a letter
and briefing with our results. Specifically, we noted improvements in the quality
of the data and the creation of a system to correct certain data errors. However,
significant numbers of nonfatal crashes are still not included in the calculation of
risk because the crashes are not being reported to FMCSA by the states. The
reasons that crashes are not reported vary by state and include the need for
additional training for officials who prepare crash reports and problems with state
crash reporting forms.

The quality of safety performance data is vital to ensuring that high-risk motor
carriers are targeted for additional oversight, and crash data are the most important
factor in the overall SafeStat score. Crash data are weighted twice as heavily as
either the vehicle inspection history or the results of the most recent compliance
review. Thus, missing crash data can seriously affect the ranking of a motor
carrier, leading to less oversight than is appropriate. For example, a high-risk
carrier with many unreported nonfatal crashes might not be targeted for FMCSA’s
attention, even when it should be.

We do not know how many nonfatal crashes are missing from the FMCSA data,
but independent assessments of crash data completeness for 15 states have shown
that only 64 percent of the nonfatal large truck crashes that should have been
reported were included in FMCSA’s database. FMCSA’s reviews of each state
are intended to resolve this problem.
                                                                                    7


FMCSA Must Reassess and Strengthen the Compliance Review
Process As Vulnerabilities Are Identified
FMCSA can enhance its compliance review process by periodically reassessing
and strengthening its procedures when potential vulnerabilities are identified. We
have not examined the compliance review process in detail, so we cannot provide
an overall assessment at this time. However, a recent fatal crash points out how
complex and difficult FMCSA’s responsibilities can be, and that selecting a
company for review may not always guarantee that safety problems are identified.

This past March, a tragic fatal crash occurred on the Washington, D.C., beltway
(Interstate 495) involving a large truck operated by B.K. Trucking of New Jersey.
B.K. Trucking is a small, interstate trucking corporation, which—before its recent
shutdown—delivered bananas and pineapples up and down the East Coast. The
driver of the truck had a suspended commercial driver’s license when involved in
the crash that killed a husband and father of two small children. The driver had
previously received driving citations in six states, including citations for speeding,
careless driving, inattentive driving, driving with defective brakes, and driving
with a suspended license. B.K. Trucking had been selected for and subjected to a
compliance review by FMCSA in February of this year based on its ranking in
SafeStat. Nevertheless, the compliance review did not disclose the serious
problems with this driver.

FMCSA’s compliance review identified company drivers as well as drivers whom
the owner claimed were leased operators, operating under their own authority.
The driver involved in the fatal crash was reported to be an owner-operator. Since
compliance review procedures concentrate on company drivers, this driver was not
included when license checks were conducted. As a result, this driver’s poor
driving record was not uncovered during the B.K. Trucking compliance review.
B.K. Trucking has been ordered out of service. Both the company and the driver
remain under investigation by FMCSA and our office and we have been informed
that FMCSA is addressing lessons learned from this incident in its ongoing
training of compliance review investigators.

We recognize that it is not practical for FMCSA to review every aspect of a motor
carrier’s operation during the limited time normally allotted to carry out its
compliance review. However, we believe that FMCSA needs to continually
reassess its compliance review process. This case, for example, shows that
additional guidance may be needed on determining whether drivers are actually
valid owner-operators or have only been classified by the carrier as owner-
operators to avoid closer FMCSA scrutiny.
                                                                                  8


FMCSA should also consider expanding the compliance review to include
sampling of all drivers, including owner-operators, to determine whether they hold
valid commercial driver’s licenses.



FMCSA Must Ensure That Enforcement Actions Are Taken
Against Repeat Violators
Another way that FMCSA can improve its oversight is to ensure that motor
carriers are sanctioned when rules are repeatedly broken. Section 222 of MCSIA
requires the Secretary of Transportation to assess the maximum civil penalty when
a motor carrier or individual is found to have committed a pattern of violations.

FMCSA’s key enforcement tool, the compliance review, examines a motor
carrier’s operations to determine whether the carrier and its trucks and drivers
meet safety requirements. If violations are found, enforcement action may be
initiated, such as the levying of fines. To be counted toward a pattern of
violations, these enforced violations must be documented on a Notice of Claim,
which is a legal document issued to the carrier to assess the fine.

To determine the amount of the fine, FMCSA uses its Uniform Fine Assessment
software (UFA). The UFA considers nine statutorily-mandated factors in
determining the amount of the fine, such as the nature and circumstances of the
violation, the history of prior offenses, and the motor carrier’s ability to pay the
civil penalty. These factors usually limit the fine to an amount less than the
maximum allowed by law. Because of the fine limit, although all violations are
recorded during the compliance review, the penalties assessed may relate only to
one or two of the most egregious violations.

Based on our work in 2006, we noted a loophole in FMCSA’s enforcement policy
that allowed hundreds of motor carriers to repeatedly violate significant safety
rules without exposure to maximum penalties. The loophole comes into play
when FMCSA identifies violations during a motor carrier’s compliance review,
but omits the violations from the Notice of Claim.

If a violation is not documented in the Notice of Claim, even if subsequent
compliance reviews identify repeated violations of the same regulation, the earlier
violations are not considered in establishing the pattern of violations necessary to
invoke the maximum penalty provision. As a result, a motor carrier with limited
ability to pay a fine could violate the same rule over and over, without running the
risk of being penalized as a “repeat offender.”
                                                                                   9


Our analysis of two categories of regulations showed that such repeat violations
occurred frequently. Between September 2000 and October 2004, 533 motor
carriers repeatedly violated either hours of service or drug and alcohol regulations,
and 67 repeatedly violated both. Yet because some violations were not
documented in the enforcement claim, only 33 (6 percent) of the 533 motor
carriers received the maximum penalty.

While it is necessary to consider a motor carrier’s ability to pay a fine when taking
enforcement action, this consideration should not be allowed to override the
necessity for dealing appropriately with repeat violators. Closing this loophole
will allow FMCSA to further deter violations of important safety regulations.
FMCSA agreed to address this concern by June 2008, pending issuance of an
upcoming Government Accountability Office (GAO) report on this issue. GAO is
examining FMCSA actions against repeat offenders as part of a more
comprehensive review of motor carrier oversight. FMCSA must act as soon as
possible to implement changes once the GAO report is issued.

The attachment provides a list of our motor carrier safety reports and testimony
and includes our work on implementation of the cross-border trucking provisions
of NAFTA.

Mr. Chairman, this concludes my statement. I would be happy to answer any
questions that you or other members of the Subcommittee may have at this time.



                                         #
                                                                              10


ATTACHMENT

           OFFICE OF INSPECTOR GENERAL WORK ON
           FEDERAL MOTOR CARRIER SAFETY ISSUES

OIG Memorandum, 2006-041, “Improvements in the Quality of the Underlying
Data Used by the Motor Carrier Safety Status Measurement System (SafeStat),”
June 19, 2007.

OIG Testimony, CC-2007-029, “Status of Safety Requirements for Cross-Border
Trucking With Mexico Under NAFTA,” March 13, 2007

OIG Testimony, CC-2007-026, “Status of Safety Requirements for Cross-Border
Trucking With Mexico Under NAFTA,” March 8, 2007

OIG Statement, “DOT Announcement of Cross-Border Truck Safety Pilot Plan,
February 26, 2007

OIG Report No. MH-2006-046, “Significant Improvements in Motor Carrier
Safety Since 1999 Act but Loopholes for Repeat Violators Need Closing,”
April 21, 2006

OIG Report No. MH-2006-037, “Federal Motor Carrier Safety Administration
Oversight of the Commercial Driver's License Program,” February 7, 2006

OIG Testimony, CC-2005-038, “Background Checks For Holders of Commercial
Drivers Licenses With Hazardous Materials Endorsements,” May 11, 2005

OIG Testimony, CC-2005-024, “Reauthorization of TEA-21 Safety Programs,”
April 5, 2005

OIG Report No. MH-2005-032, “Follow-up Audit of the Implementation of the
North American Free trade Agreement’s (NAFTA) Cross Border Trucking
Provisions”, January 3, 2005

OIG Report No. MH-2004-068, “Report on Investment Review Board
Deliberations on the Motor Carrier Management Information System,” June 29,
2004

OIG Memorandum, CC-2004-054, “Need to Establish a Legal Presence
Requirement for Obtaining a Commercial Driver's License,” June 4, 2004
                                                                             11


OIG Report No. MH-2004-034, “Improvements Needed in the Motor Carrier
Safety Status Measurement System,” February 13, 2004

OIG Report No. MH-2003-041, “Follow–up Audit on the Implementation of
Commercial Vehicle Safety Requirements at the U.S.–Mexico Border,”
May 16, 2003

OIG Memorandum, CC-2002-163, “Locations of Safety Inspection Sites for
Mexican Trucks,” September 6, 2002

OIG Testimony, CC-2002-179, “Implementation of Commercial Motor Carrier
Safety Requirements at the U.S.-Mexico Border,” June 27, 2002

OIG Report No. MH-2002-094, “Implementation of Commercial Vehicle Safety
Requirements at the U.S.-Mexico Border,” June 25, 2002

OIG Report No. MH-2002-093, “Improving the Testing and Licensing of
Commercial Drivers,” May 8, 2002

OIG Report No. CR-2002-073, “Review of Department Oversight for
Transportation of Nuclear Waste,” January 10, 2002

OIG Report No. MH-2001-096, “Motor Carrier Safety at the U.S.-Mexico
Border,” September 21, 2001

OIG Testimony, CC-2001-244, “Motor Carrier Safety at the U.S.-Mexico Border,”
July 18, 2001

OIG Report No. MH-2001-059, “Interim Report on Status of Implementing the
North American Free Trade Agreement’s Cross- Border Trucking Provisions,”
May 8, 2001

OIG Report No. PT-2001-017, “Top DOT Management Challenges Report,”
Surface Transportation Safety excerpt, January 18, 2001

OIG Report      No.   MH-2000-106,      “Disqualifying   Commercial   Drivers,”
June 30, 2000

OIG Testimony, TR-2000-059, “Motor Carrier Safety,” March 2, 2000

OIG Report No.        TR-   2000-013,   “Mexico-Domiciled    Motor    Carriers,”
November 4, 1999
                                                                             12


OIG Testimony, TR-1999-134, “S.1501 The Motor Carrier Safety Improvement
Act of 1999,” September 29, 1999

OIG Testimony, TR-1999-091, “Motor Carrier Safety Program,” April 27, 1999

OIG Report No. TR-1999-091, “Motor Carrier Safety Program,” April 26, 1999

OIG Testimony, TR-1999-055, “Surface Transportation Safety/Motor Carrier
Safety and Related Matters,” February 23, 1999

OIG Report No. TR-1999-034, “Motor Carrier Safety Program for Commercial
Trucks at U.S. Borders,” December 28, 1998

OIG Report No. AS-FH-7-006, “Motor Carrier Safety Program,” March 26, 1997

OIG reports, testimony, and correspondence can be accessed on the OIG website
at www.oig.dot.gov .
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added
here to accommodate assistive technology.
              Fatality Rate for Large-Truck-Related Crashes
The annual rates shown in this table are fatalities per 100 million vehicle miles
traveled. Actual fatality rates are listed from years 1998 to 2005. A projected
fatality rate is listed for 2006, and target fatality rates are listed from 2003 to 2006.
              Year       Actual Fatality Rate    Projected Rate   Target Rate
                1998                      2.75
                1999                      2.65
                2000                      2.57
                2001                      2.45
                2002                      2.30
                2003                      2.31                           2.19
                2004                      2.37                           2.07
                2005                      2.34                           1.96
                2006                                       2.20          1.85

Source: FMCSA and OIG based on National Highway Traffic Safety
Administration data.
            Increases in Oversight and Enforcement Activities
The table is a comparison of the number of activities completed in fiscal year 1998
and fiscal year 2004. Fiscal year 2004 is the most recent year for which data
confirmed through our audit work are available.
      Fiscal Year   Compliance Reviews     Enforcement Cases   Violations Enforced
      1998                         6,312               2,680                 2,240
      2004                       10,658                6,459                 6,957

Source: FMCSA.
